(:~ D	 EPARTMENT OF HEALTH & HUMt.N SERVICES                                        Office of Inspector General


                                                                                    Washington, DC 	 20201




                                            JAN 092012


        TO: 	         Marilyn Tavenner 

                      Acting Administrator 

                      Centers for Medicare & Medicaid Services 


                                      /S/
        FROM:         Stuart Wright 

                      Deputy Inspector General 

                         for Evaluation and Inspections 



        SUBJECT: 	 Memorandum Report: Comparison ofAverage Sales Prices to Widely
                   Available Market Prices for Selected Drugs, OEI-03-10-00280


        This review was conducted in accordance with the statutory mandate for the Office of
        Inspector General (OIG) to compare average sales prices (ASP) to widely available
        market prices (WAMP) for Medicare Part B prescription drugs and to identify ASPs that
        exceed W AMPs by at least 5 percent.

        SUMMARY

        Federal law requires OIG to conduct studies that compare ASPs to WAMPs and average
        manufacturer prices (AMP). If OrG finds that the ASP of a drug exceeds either the
        WAMP or AMP by a certain threshold (currently 5 percent), the Secretary of Health and
        Human Services (the Secretary) may disregard the ASP for the drug when setting
        reimbursement amounts. Since the implementation of the ASP reimbursement
        methodology, OIG has issued 27 reports comparing ASPs to WAMPs and AMPs
        (2 comparing ASPs to WAMPs, 25 comparing ASPs to AMPs).

        The purpose of this review was to compare ASPs to W AMPs for 14 drugs that have been
        identified in previous OIG reports as repeatedly exceeding the 5-percent ASP-AMP
        threshold. However, limitations and irregularities in the sales data provided by the
        distributors and manufacturers ofthe 14 drugs called into question the data's accuracy
        and reliability, and prevented us from measuring WAMPs against the threshold.

           • 	 All of the manufacturers that reported direct sales to providers included data on
               their discounts and rebates for those sales. However, two distributors (which sold
               over half of all the units reported to us) were not able to determine the discounts
               and rebates they provided, meaning that the WAMPs we calculated most likely
               did not reflect the actual prices paid in the marketplace. In the past, OIG has had
Page 2 – Marilyn Tavenner


       difficulty obtaining data on discounts and rebates from distributors, but in those
       instances, the missing data did not have the same impact on our results.

   •   Furthermore, the total number of units sold reported to us by distributors and
       manufacturers differed substantially from the number reported to the Centers for
       Medicare & Medicaid Services (CMS) through quarterly ASP submissions,
       potentially resulting in our data reflecting an inaccurate number of sales.

   •   Most likely because of these issues, the WAMPs we calculated varied widely
       from other pricing points; several drugs had WAMPs that were substantially
       higher than the associated ASPs and AMPs.

We plan to continue to fulfill our statutory mandate to conduct WAMP studies, and these
issues will need to be addressed before any future efforts can be made to compare ASPs
to WAMPs. We will consider alternative methodologies that will allow us to conduct
pricing comparisons, including directly surveying providers to obtain accurate and
complete sales data.

BACKGROUND

Medicare Part B Coverage of Prescription Drugs
Although Medicare Part D covers most outpatient prescription drugs, CMS continues to
cover a limited number of outpatient prescription drugs and biologicals (hereinafter
referred to as drugs) under its Part B benefit. Covered drugs include injectable drugs
administered by a physician; certain self-administered drugs, such as oral anticancer
drugs and immunosuppressive drugs; drugs used in conjunction with durable medical
equipment; and some vaccines. Part B and its beneficiaries spent $12 billion for more
than 600 outpatient prescription drugs in 2010.

Medicare Part B Payment for Prescription Drugs
To obtain Medicare payment for Part B-covered drugs, physicians and suppliers submit
claims using the Healthcare Common Procedure Coding System (HCPCS) codes. In the
case of prescription drugs, each HCPCS code defines the drug ingredient name and
billing unit size but does not specify the manufacturer or package size.

Part B pays for most covered drugs using a methodology based on ASPs. Manufacturers
report ASPs for their covered drugs to CMS on a quarterly basis. The ASP is defined as
a manufacturer’s sales of a drug to all purchasers in the United States in a calendar
quarter (net of most discounts) divided by the total number of units of the drug sold by




OEI-03-10-00280      Comparison of ASPs to WAMPs for Selected Drugs
Page 3 – Marilyn Tavenner


the manufacturer in that same quarter. 1 This includes sales to distributors and
wholesalers (distributors) and direct sales to providers. Manufacturers report ASPs for
Part B-covered drugs by national drug codes (NDC), which are 11-digit numeric codes
divided into three segments identifying (1) the firm that manufactures, distributes, or
repackages the drug product (i.e., the labeler code); (2) the specific strength, dosage form,
and formulation of the product; and (3) the product’s package size. 2

Because Part B reimbursement for outpatient drugs is based on HCPCS codes rather than
NDCs and more than one NDC may meet the definition of a particular HCPCS code,
CMS has developed a file (the ASP background file 3) that “crosswalks” manufacturers’
NDCs to HCPCS codes. CMS uses information in this file to calculate volume-weighted
ASPs for covered HCPCS codes based on the data from the relevant NDCs. The
Medicare payment amount for most Part B drugs is equal to 106 percent of the
volume-weighted ASP for the HCPCS code. Medicare beneficiaries are generally
responsible for 20 percent of this amount in the form of coinsurance.

OIG’s Monitoring of ASPs, AMPs, and WAMPs
Federal law requires OIG to conduct studies that compare ASPs to WAMPs and
AMPs. 4, 5 If OIG finds that the ASP of a drug exceeds either the WAMP or AMP by a
certain threshold (currently 5 percent), the Act states that the Secretary may disregard the
ASP for the drug when setting reimbursement amounts, 6, 7 and that “… the Inspector
General shall inform the Secretary (at such times as the Secretary may specify to carry
out this subparagraph) and the Secretary shall, effective as of the next quarter, substitute

1
  Section 1847A(c) of the Social Security Act (the Act), as added by the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003, P.L. 108-173. Pursuant to § 1847A(c) of the Act, ASP is
net of any price concessions, such as volume discounts, prompt-pay discounts, cash discounts, free goods
contingent on purchase requirements, chargebacks, and rebates other than those obtained through the
Medicaid drug rebate program. Sales that are nominal in amount are exempted from the ASP calculation,
as are sales excluded from the determination of “best price” in the Medicaid drug rebate program.
2
  Pursuant to §§ 1927(a)(1) and (b)(1) of the Act, for Federal payment to be available for covered outpatient
drugs provided under Medicaid, drug manufacturers must enter into rebate agreements with the Secretary.
Manufacturers with Medicaid drug rebate agreements in effect must, among other things, provide CMS
with pricing information, including the ASP for each of their Part B-covered drugs and the AMP for each
of their applicable Medicaid-covered drugs.
3
  CMS provides OIG with the ASP background file each quarter. This file contains ASP data (including
the ASP itself and the number of units sold in the quarter) for all NDCs (grouped by their corresponding
HCPCS codes) that were reported in that quarter.
4
  Section 1847A(d)(2) of the Act.
5
  Section 1927(k)(1) of the Act, as amended by section 2503(a)(2) of the Affordable Care Act,
P.L. 111-148, defines AMP as the average price paid to the manufacturer for the drug in the United States
by wholesalers for drugs distributed to retail community pharmacies and by retail community pharmacies
that purchase drugs directly from the manufacturer, with certain exclusions.
6
  Section 1847A(d)(3)(A) of the Act.
7
  Section 1847A(d)(3)(B)(ii) of the Act provided the Secretary with authority to adjust the applicable
threshold percentage in 2006 and subsequent years; however, the threshold percentage has been maintained
at 5 percent.


OEI-03-10-00280           Comparison of ASPs to WAMPs for Selected Drugs
Page 4 – Marilyn Tavenner


for the amount of payment … the lesser of (i) the widely available market price … (if
any); or (ii) 103 percent of the average manufacturer price….”8 The Act defines WAMP
as the price that a prudent physician or supplier would pay for the drug, and states that
“[i]n determining such price, the Inspector General shall take into account the discounts,
rebates, and other price concessions routinely made available to such prudent physicians
or suppliers for such drugs or biologicals.”9

Since 2006, OIG has issued 27 reports (2 comparing ASPs to WAMPs, 25 comparing
ASPs to AMPs), and has repeatedly identified certain drugs with ASPs that exceeded the
5-percent threshold in one or more quarters. For example, a 2010 OIG report comparing
ASPs to AMPs found that 26 drugs exceeded the 5-percent threshold in the third quarter
of 2009.10 Lowering reimbursement amounts for the 26 drugs to 103 percent of the AMP
would have reduced Medicare expenditures by $2.7 million in the first quarter of 2010.
Fourteen of the drugs that exceeded the 5-percent threshold in the third quarter of 2009
also exceeded the threshold in at least one of the previous four quarters.

Although CMS has yet to make changes to Part B reimbursement as a result of OIG’s
pricing comparisons, in November 2011 CMS issued a Notice of Final Rulemaking that
applies price substitutions beginning in 2012 to certain drugs that repeatedly exceed the
5-percent AMP threshold.11 CMS stated that it is excluding WAMP from the price
substitutions because of the lack of data regarding comparisons between ASPs and
WAMPs; however, the agency will reconsider proposing a policy for price substitutions
based on ASP and WAMP comparisons at a later date.12 Furthermore, in its comments
on another OIG pricing comparison, CMS also stated that additional analysis of pricing
data is an important next step in developing a price substitution policy.13 This current
study, which focused on drugs that have repeatedly exceeded the 5-percent AMP
threshold, was intended to provide further analysis to assist CMS in its efforts to develop
a price substitution policy.




8
  Section 1847A(d)(3)(C) of the Act. 

9
  Section 1847A(d)(5)(A) of the Act. 

10
   OIG, Comparison of Third-Quarter 2009 Average Sales Prices and Average Manufacturer Prices:

Impact on Medicare Reimbursement for First Quarter 2010 (OEI-03-10-00150), April 2010. 

11
   76 Fed. Reg. 73026, 73293 (Nov. 28, 2011). Specifically, CMS will substitute prices for drugs that 

exceed the 5-percent AMP threshold in two consecutive quarters, or three of four quarters. Price 

substitutions will only apply to drugs with complete AMP data, and will remain in effect for one quarter. 

12
   Ibid., at 73287. 

13
   OIG, Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of 2008

(OEI-03-09-00350), February 2010. 



OEI-03-10-00280           Comparison of ASPs to WAMPs for Selected Drugs
Page 5 – Marilyn Tavenner


METHODOLOGY

In an April 2010 report comparing ASPs and AMPs, we identified 14 HCPCS codes that
exceeded the 5-percent threshold in the third quarter of 2009 and at least one of the
previous four quarters (see Table 1). Eight of the 14 drugs exceeded the threshold based
on complete AMP data, and 6 exceeded the threshold based on partial AMP data. 14

      Table 1: Fourteen HCPCS Codes That Exceeded the 5-Percent
      ASP-AMP Threshold in the Third Quarter of 2009 and at Least One
      of the Four Previous Quarters
       HCPCS Code                                                                                       Drug Name

       J0560*                                                             Penicillin g benzathine inj., 600,000 units

       J1190                                                                         Dexrazoxane HCl inj., 250 mg

       J1364                                                                           Erythro lactobionate, 500 mg

       J2597                                                                      Desmopressin acetate inj., 1 mcg

       J2765                                                                        Metoclopramide HCl inj., 10 mg

       J2792*                                                             Rho(D) immune globulin h, sd, 100 units

       J2993*                                                                                Reteplase inj., 18.1 mg

       J3470*                                                                          Hyaluronidase inj., 150 units

       J7506                                                                                  Prednisone oral, 5 mg

       J7509                                                                         Methylprednisolone oral, 4 mg

       J9340                                                                                    Thiotepa inj., 15 mg

       Q0163                                                                          Diphenhydramine HCl, 50 mg

       Q9965*                                        Low osmolar contrast material, 100–199 mg/mL iodine, 1 mL

       Q9966*                                        Low osmolar contrast material, 200–299 mg/mL iodine, 1 mL
      mg=milligram, mcg=microgram, and mL=milliliter
      Source: OIG, Comparison of Third-Quarter 2009 Average Sales Prices and Average Manufacturer Prices: Impact on
      Medicare Reimbursement for First Quarter 2010 (OEI-03-10-00150), April 2010.
      * Indicates the drug is only available in brand-name form.


We surveyed each of the 23 manufacturers with NDCs in CMS’s ASP background file
that were associated with any of the 14 HCPCS codes listed in Table 1. We asked each
manufacturer to provide pricing data for any direct purchases by suppliers or physicians
in third-quarter 2009, fourth-quarter 2009, and first-quarter 2010. Because WAMP is
defined as being net of any discounts and rebates, 15 we asked the manufacturers to
provide data on discounts and rebates. Because many providers purchase drugs from
distributors rather than directly from manufacturers, the manufacturer-reported sales data
alone would not reflect all sales to providers. Therefore, we also asked each

14
   A HCPCS code with complete AMP data is one with AMP data for every NDC that CMS used in its
calculation of the HCPCS code’s volume-weighted ASP.
15
   Section 1847A(d)(5)(A) of the Act.


OEI-03-10-00280             Comparison of ASPs to WAMPs for Selected Drugs
Page 6 – Marilyn Tavenner


manufacturer to provide the contact information for all distributors to which it sold any of
the drugs during the quarters under review. The 23 manufacturers reported selling these
drugs to 127 distributors. We then surveyed all 127 distributors, and asked for data on
their sales to providers for any NDCs that met the description of any of the 14 drugs in
third-quarter 2009, fourth-quarter 2009, and first-quarter 2010. We asked the distributors
to break down the data by class of trade, and to provide data on discounts and rebates.

We received responses from every manufacturer and distributor. 16 We compiled the
sales data reported by the 23 manufacturers and 127 distributors for each drug in each of
the three quarters. We excluded data on sales made to “institutional” classes of trade and
on sales of NDCs not included in CMS’s calculation of ASPs. We calculated the
volume-weighted WAMP for each of the 14 HCPCS codes in each of the three quarters
by using the NDC-level pricing data provided by the distributors and direct sales data
provided by the manufacturers. When available, we included all discounts and rebates.
We then obtained volume-weighted ASPs for each of the three quarters from CMS, and
compared these figures to the volume-weighted WAMP in each quarter.

Limitations
We did not verify the accuracy or completeness of CMS’s ASP data or the sales data
provided to us by the manufacturers and distributors.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Limitations and irregularities in the sales data prevented an accurate determination
of whether any of the 14 drugs exceeded the ASP-WAMP threshold

Because of limitations in the distributor-reported data, most of the sales data we received
did not reflect discounts and rebates that were passed on to providers. Because WAMP is
statutorily defined as being net of any routinely available price concessions, we asked the
manufacturers and distributors to include data on discounts and rebates along with their
sales data. All of the manufacturers that reported direct sales included data on their
discounts and rebates. However, two large distributors reported that they calculate
discounts and rebates based on each customer’s total purchases for a variety of drugs,
rather than individual sales transactions for each drug, and therefore they were unable to
determine the amount of discounts and rebates provided for each NDC. In other words,
although these distributors responded to our request and provided their total sales data,
they could not calculate the net price for each drug.

16
  In some cases, respondents reported that they had no sales of the drugs to providers in the quarters under
review.


OEI-03-10-00280           Comparison of ASPs to WAMPs for Selected Drugs
Page 7 – Marilyn Tavenner


These two distributors accounted for 58 percent of all units sold during the three quarters
under review, meaning that more than half of the sales data we received for each quarter
did not include any information on the discounts and rebates received by providers. For
example, for the third quarter of 2009, we were provided data on discounts and rebates
for only 42 percent of all units sold.17 Among the individual drugs, the proportion of
sales data that included discounts and rebates in that quarter ranged from 4 to 51 percent.

Because of the incomplete data on discounts and rebates, the WAMPs we calculated most
likely did not reflect the actual prices paid in the marketplace, and therefore could not
appropriately be compared to the 5-percent threshold. In addition, because the price
concessions offered by these two large distributors may have differed substantially from
the average price concessions, it is not possible to estimate discounts and rebates for
these sales.

The total number of units sold reported to us through the WAMP survey differed
substantially from those reported to CMS through manufacturers’ ASP submissions, with
the possible implication that our data represented an inaccurate number of sales. Because
manufacturers are required to report all sales of a drug when submitting quarterly ASP
data to CMS, and our survey requested all direct sales data from every manufacturer and
distributor of each drug, the total units sold reported to CMS would be expected to
resemble those reported through our survey. However, for 11 of the 14 drugs, ASP units
reported to CMS differed by more than 10 percent from the WAMP units reported to us
for third-quarter 2009. 18, 19 ASP units were greater than WAMP units for eight drugs,
and WAMP units were greater than ASP units for six drugs. In three cases,
manufacturers reported over twice as many units sold in CMS’s ASP background file
than were reported to us. See Table 2 for a comparison of the total units reported to CMS
through ASP submissions and the total units submitted in response to our WAMP survey.




17
   We were provided discount and rebate data for 40 percent of units sold in fourth-quarter 2009 and
44 percent of units sold in first-quarter 2010.
18
   For the purposes of this analysis, we included only units reported to us through the WAMP survey for
NDCs used in CMS’s calculation of ASPs. These included units sold to institutional classes of trade.
19
   These figures were similar in the remaining two quarters: 12 of the 14 drugs had units that differed by
more than 10 percent in fourth-quarter 2009, and 11 of 13 drugs had units that differed by more than
10 percent in first-quarter 2010. One drug in this quarter had no sales reported to us or sales reported in
CMS’s ASP background file.


OEI-03-10-00280           Comparison of ASPs to WAMPs for Selected Drugs
Page 8 – Marilyn Tavenner


        Table 2: Units Reported to CMS and OIG, Third-Quarter 2009
                                                                                                         Percentage
         HCPCS Code1             Units Reported to CMS           Units Reported to OIG
                                                                                                         Difference2

         1                                      14,387,315                      6,582,136                    118.58%

         2                                      38,581,894                     17,891,338                    115.65%

         3                                      15,737,251                      7,133,905                    120.60%

         4                                            7,442                         12,140                   -38.70%

         5                                       1,117,331                      1,174,360                      -4.86%

         6                                           70,780                         94,284                   -24.93%

         7                                       2,062,877                      1,579,540                     30.60%

         8                                           30,286                         29,370                      3.12%

         9                                       6,425,800                      6,350,280                       1.19%

         10                                        502,080                        600,655                    -16.41%

         11                                          65,170                         56,093                    16.18%

         12                                           3,014                          5,314                   -43.28%

         13                                          13,476                         17,977                   -25.04%

         14                                     82,037,410                     55,509,110                     47.79%

              Total                           161,042,126                      97,036,502                     65.96%
        Sources: OIG analysis of manufacturer- and distributor-reported sales data and CMS’s ASP data, 2010–2011.
        1
          HCPCS codes are in random order. Because of the data’s proprietary status, we could not identify individual
        HCPCS codes.
        2
          Figures are shown for only third-quarter 2009; however, the other two quarters under review showed similar
        results.


Some distributors may have sold products in a different quarter than when they purchased
them, slightly altering the number of units reported to us as compared to the number of
manufacturer-reported ASP units for each quarter. However, this is unlikely to account
for the large disparities in units reported to OIG and CMS. Rather, it appears likely that
the data we received were not an accurate representation of the number of sales that
occurred in the marketplace. This is evident by the fact that the total number of units
reported to CMS for all 14 drugs was 66 percent greater than the number of units reported
to us for those same drugs in that timeframe.

Based on the data we received, it appears that certain manufacturers failed to report ASPs
to CMS. The distributors and manufacturers we surveyed reported their sales data by
NDC. In those data, we identified many NDCs that were not included in CMS’s ASP
background file. For example, for the third quarter of 2009, the manufacturers and
distributors reported sales data to us for 108 unique NDCs that did not have ASPs
reported to CMS. These data represented:

              •       10 of the 14 drugs under review,
              •       sold by 44 unique manufacturers, and


OEI-03-10-00280             Comparison of ASPs to WAMPs for Selected Drugs
Page 9 – Marilyn Tavenner


            •   totaling $538,000 in sales in third-quarter 2009.

Of the 108 NDCs not included in CMS’s ASP background file that quarter, 83 NDCs
(77 percent) were sold by manufacturers with Medicaid Rebate Agreements in effect,
thereby requiring them to report ASP data to CMS. Sales reported to us for these
83 NDCs totaled $470,000 in third-quarter 2009. 20

Any NDC for which a manufacturer has ever provided ASP data to CMS is included in
the ASP background file. Therefore, the absence of these NDCs in the ASP background
file indicates that there is no record (at least for the purposes of calculating the Medicare
payment amounts) of these products being sold in the marketplace, despite our survey
results’ demonstrating otherwise. Because CMS uses ASP data to calculate Medicare
payment amounts, the failure of manufacturers to report these data may result in payment
amounts that are inaccurate and not reflective of all Part B-covered drug sales.

Most likely because of the issues previously described, the WAMPs we calculated varied
widely from other pricing points, and therefore we could not accurately determine
whether any of the drugs exceeded the ASP-WAMP threshold. As Table 3 shows, ASPs
for the 14 drugs ranged from 42 percent below the WAMPs to 51 percent above the
WAMPs in the third quarter of 2009. 21 Four of the drugs had ASPs that were more than
20 percent below the WAMPs we calculated for that quarter. This particularly calls the
WAMP data’s integrity into question, as WAMPs that are substantially higher than ASPs
(and AMPs) would likely be indications of widespread provider underreimbursement.
However, although these drugs consistently appeared in OIG’s quarterly pricing
comparisons as candidates for price reductions, as far as we know, no providers have
claimed that they are being underreimbursed for the particular products. These factors
indicate that our WAMP data (rather than CMS’s ASP data) are the most likely cause of
the ASP-WAMP comparison irregularities, and as a result, our confidence in our WAMP
calculations has been further eroded.




20
  We will refer these manufacturers to CMS and work with it to take appropriate action.
21
  ASPs for the 14 drugs ranged from 36 percent below the WAMPs to 47 percent above the WAMPs in
fourth-quarter 2009, and from 43 percent below the WAMPs to 49 percent above the WAMPs in first-
quarter 2010.


OEI-03-10-00280        Comparison of ASPs to WAMPs for Selected Drugs
Page 10 – Marilyn Tavenner



            Table 3: ASP-WAMP and ASP-AMP Comparisons,
            Third-Quarter 2009
                                           Percentage Difference                   Percentage Difference
             HCPCS Code
                                        Between ASP and WAMP1                     Between ASP and AMP

             1*                                              -41.74%                                   9.68%

             2*                                              -24.27%                                   5.29%

             3*                                              -23.13%                                   7.04%

             4*                                              -21.38%                                  64.14%

             5                                               -10.54%                                  22.43%

             6                                                 -8.08%                                  7.32%

             7*                                                -5.80%                               449.97%

             8                                                 -2.92%                                  9.52%

             9                                                 2.08%                                   6.54%

             10                                                4.18%                                   6.76%

             11                                                7.05%                                   6.71%

             12                                                7.87%                                  66.92%

             13                                                7.94%                                   9.74%

             14*                                              51.20%                                  48.32%
            Sources: OEI-03-10-00150; OIG analysis of manufacturer- and distributor-reported sales data and
            CMS’s ASP data, 2010–2011.
            1
              Comparisons are shown for only third-quarter 2009; however, the other two quarters under review
            showed similar results.
            * Denotes HCPCS codes with partial AMP data.




CONCLUSION

CMS recently stated that additional analysis of pricing data is an important next step for
developing a price substitution policy. The purpose of this review was to assist CMS in
that effort by comparing ASPs to WAMPs for 14 drugs that have been identified in
previous OIG reports as repeatedly exceeding the 5-percent ASP-AMP threshold.
However, limitations and irregularities in the sales data we received prevented us from
conducting accurate comparisons between ASPs and WAMPs, and as a result, we were
unable to determine whether any of the drugs exceeded the ASP-WAMP threshold.

The data issues we identified in this report will need to be addressed in any future OIG
efforts to compare ASPs to WAMPs. In the past, OIG has collected sales data from
distributors for studies involving drug pricing in both Medicare and Medicaid. Discount
and rebate data have been difficult to obtain from certain respondents, but the lack of data
on discounts and rebates previously had little influence on our results. For example, in
one recent report, OIG was not comparing prices against a set threshold for individual
drugs. Rather, we were using the distributor sales data to evaluate an overall pricing



OEI-03-10-00280           Comparison of ASPs to WAMPs for Selected Drugs
Page 11 – Marilyn Tavenner


policy (i.e., Medicaid Federal upper limits) that resulted in hundreds of millions of dollars
in excessive payments for more than 550 drugs. 22 Because the difference between
Federal upper limit amounts and acquisition costs was very large (an average of more
than 300 percent), our pricing comparisons were not inhibited by the lack of data on
discounts and rebates (and, in fact, additional data on discounts and rebates would have
widened the spread between acquisition costs and Medicaid payments). Therefore, in
that instance, calculating estimated sales prices (rather than exact prices) was appropriate,
and we noted the lack of price concession data as a limitation. However, the objectives
of our WAMP comparisons require more precise estimates of provider acquisition costs,
and the lack of data on discounts and rebates prevented us from accurately measuring
WAMPs against the statutory threshold. In the future, we plan to continue to fulfill our
statutory mandate to conduct WAMP studies, and we will consider alternative
methodologies that will allow us to do so, including directly surveying providers to
obtain accurate and complete sales data.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-03-10-00280 in all correspondence.




22
 OIG, A Comparison of Medicaid Federal Upper Limit Amounts to Acquisition Costs, Medicare Payment
Amounts, and Retail Prices (OEI-03-08-00490), August 2009.


OEI-03-10-00280        Comparison of ASPs to WAMPs for Selected Drugs
